Audit Report




OIG-11-016
SAFETY AND SOUNDNESS: Failed Bank Review of American
National Bank
November 05, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE NE RAL



                                            November 05, 2010


             OIG-11-016

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY
                            OFFICE OF THE COMPTROLLER OF THE CURRENCY

             FROM:                 Kieu T. Rubb /s/
                                   Director, Procurement and Manufacturing Audits

             SUBJECT:              Failed Bank Review of American National Bank


             This memorandum presents the results of our review of the failure of American
             National Bank (American). American opened in 1963 and had a main office in
             Parma, Ohio. The bank was a wholly owned subsidiary of American National
             Bancorp, a bank holding company in Parma, Ohio. The Office of the Comptroller of
             the Currency (OCC) closed American and appointed the Federal Deposit Insurance
             Corporation (FDIC) as receiver on March 19, 2010. At December 31, 2009, the
             bank had $70.3 million in total assets. FDIC estimated that the loss to the Deposit
             Insurance Fund is $17.1 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of American that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
             (3) interviewed OCC personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-016
Page 2

Causes of American’s Failure
The primary causes of American’s failure were its aggressive growth strategy in
mortgage servicing assets, reliance on wholesale deposits to fund its mortgage
banking operations, and insufficient capital relative to the risk level of its mortgage
servicing portfolio. These conditions were exacerbated by the downturn in the
housing market and overall economy. In addition, risk management activities at
American were inadequate. For example, the bank’s board and management lacked
the expertise to develop and execute complex hedging strategies to effectively
control and mitigate the high risk associated with mortgage servicing activities.
American’s mortgage servicing portfolio quickly deteriorated in 2009, resulting in
significant losses. In turn, these losses significantly diminished earnings and capital
and, ultimately, led to American’s failure.


Conclusion
Based on our review of the causes of American’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with the primary causes of American’s failure
summarized in this memorandum and had no concerns with our determination that
a more in-depth review of the bank’s failure by our office is not warranted. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5904 or
Katherine Johnson, Audit Manager, at (202) 927-8783.


Attachments
         OIG-11-016

       Attachment 1
Management Response
                                                   OIG-11-016

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
